<html>
<title> - ASTROBIOLOGY AND THE SEARCH FOR LIFE IN THE UNIVERSE</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                      ASTROBIOLOGY AND THE SEARCH

                        FOR LIFE IN THE UNIVERSE

=======================================================================




                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 21, 2014

                               __________

                           Serial No. 113-76

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


       Available via the World Wide Web: http://science.house.gov





                  U.S. GOVERNMENT PRINTING OFFICE
00-000                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
DANA ROHRABACHER, California         EDDIE BERNICE JOHNSON, Texas
RALPH M. HALL, Texas                 ZOE LOFGREN, California
F. JAMES SENSENBRENNER, JR.,         DANIEL LIPINSKI, Illinois
    Wisconsin                        DONNA F. EDWARDS, Maryland
FRANK D. LUCAS, Oklahoma             FREDERICA S. WILSON, Florida
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
PAUL C. BROUN, Georgia               DAN MAFFEI, New York
STEVEN M. PALAZZO, Mississippi       ALAN GRAYSON, Florida
MO BROOKS, Alabama                   JOSEPH KENNEDY III, Massachusetts
RANDY HULTGREN, Illinois             SCOTT PETERS, California
LARRY BUCSHON, Indiana               DEREK KILMER, Washington
STEVE STOCKMAN, Texas                AMI BERA, California
BILL POSEY, Florida                  ELIZABETH ESTY, Connecticut
CYNTHIA LUMMIS, Wyoming              MARC VEASEY, Texas
DAVID SCHWEIKERT, Arizona            JULIA BROWNLEY, California
THOMAS MASSIE, Kentucky              MARK TAKANO, California
KEVIN CRAMER, North Dakota           ROBIN KELLY, Illinois
JIM BRIDENSTINE, Oklahoma
RANDY WEBER, Texas
CHRIS COLLINS, New York
BILL JOHNSON, Ohio
                            C O N T E N T S

                              May 21, 2014

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................     5
    Written Statement............................................     6

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................     7

                               Witnesses:

Dr. Seth Shostak, Senior Astronomer at the SETI Institute
    Oral Statement...............................................     8
    Written Statement............................................    10

Mr. Dan Werthimer, Director of the SETI Research Center at the 
  University of California, Berkeley
    Oral Statement...............................................    17
    Written Statement............................................    20

Discussion.......................................................    58

             Appendix I: Answers to Post-Hearing Questions

Dr. Seth Shostak, Senior Astronomer at the SETI Institute........    74

Mr. Dan Werthimer, Director of the SETI Research Center at the 
  University of California, Berkeley.............................    85


                      ASTROBIOLOGY AND THE SEARCH

                        FOR LIFE IN THE UNIVERSE

                              ----------                              


                        WEDNESDAY, MAY 21, 2014

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to call, at 10:00 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Lamar Smith 

[Chairman of the Committee] presiding.


[GRAPHIC] [TIFF OMITTED] 

    Chairman Smith. The Committee on Science, Space, and 
Technology will come to order.
    And welcome to today's hearing ``Astrobiology and the 
Search for Life in the Universe.'' A couple of preliminary 
announcements. One is that I want to thank C-SPAN for covering 
this hearing today. That shows the importance of the hearing in 
a lot of respects.
    And I want to thank all the students from Herndon High 
School here as well. I understand you had a choice of hearings 
to attend, in fact you could attend almost any hearing you 
wanted to, and you chose this one because you thought it was 
the most interesting. And actually that is one of the purposes 
of today's hearing, and that is to inspire students today to be 
the scientists of tomorrow. And who knows? We may have some of 
those scientists in the audience right now who will be inspired 
by what they hear to study astrobiology or perhaps some of the 
other sciences as well. So we appreciate your attendance.
    I will recognize myself for an opening statement and then 
the Ranking Member as well.
    As we discover more planets around the stars in our own 
galaxy, it is natural to wonder if we may finally be on the 
brink of answering the question, ``Are we alone in the 
universe?''
    Finding other sentient life in the universe would be the 
most significant discovery in human history. Scientists 
estimate that there are 80 billion stars in the Milky Way 
galaxy. To date, more than 1,700 nearby planets have been found 
by the Kepler Space Telescope.
    Last month, astronomers discovered the first Earth-like 
planet orbiting its star at a distance where liquid water could 
be present, a condition thought essential to life. Called 
Kepler-186f, it is only ten percent larger than the Earth and 
about 490 light years away.
    The Transiting Exoplanet Survey Satellite, which will 
launch in 2017, and the James Webb Space Telescope, launching 
in 2018, will help scientists discover more planets with 
potential biosignatures.
    The United States has pioneered the field of astrobiology 
and continues to lead the world in this type of research. A 
sample of professional papers published in Science magazine 
between 1995 and 2013 illustrates the significant growth and 
growing popularity of the field of astrobiology. Between 1995 
and 2012, the number of papers published on astrobiology 
increased 10 times and the number of scientific reports that 
cited astrobiology increased 25 times.
    Astrobiology is a serious subject studied by serious 
scientists around the world. Reflecting this interest, next 
September the Library of Congress and NASA will hold a 2-day 
astrobiology symposium on what the societal impacts could be of 
finding microbial, complex, or intelligent life in the 
universe.
    Whether life exists on other planets in the universe 
continues to be a matter of debate among scientists. Around the 
world a number of astronomers listen to naturally occurring 
radio frequencies. They try to filter out the cosmic noise and 
interference of human-made satellites and spacecraft to find 
anomalies that could be signals from civilizations elsewhere in 
the universe.
    The Allen Telescope Array at the SETI Institute, financed 
by Microsoft co-founder Paul Allen, and the Arecibo telescope 
in Puerto Rico are two well-known locations for conducting 
radio astronomy searches for life in the universe.
    Recently, radio astronomers have detected pulsed signals 
that last only a few milliseconds. These ``fast radio bursts'' 
as they are called have caused scientists to speculate as to 
their cause. Some scientists hypothesize they could be from 
stars colliding or from an extraterrestrial intelligent source.
    Other astronomers search for laser light pulses, instead of 
radio waves. Researchers at the SETI Optical Telescope, run by 
the Harvard Smithsonian Center for Astrophysics, the Columbus 
Optical SETI Observatory and the University of California at 
Berkeley, among others, use optical telescopes to try to detect 
nanosecond pulses or flashes of light distinct from pulsars or 
other naturally occurring phenomena.
    I hope today's hearing will enable us to learn more about 
how research in astrobiology continues to expand this 
fascinating frontier. The unknown and unexplored areas of space 
spark human curiosity. Americans and others around the world 
look up at the stars and wonder if we are alone or is there 
life on other planets.
    [The prepared statement of Mr. Smith follows:]

             Prepared Statement of Chairman Lamar S. Smith

    As we discover more planets around the stars in our own galaxy, it 
is natural to wonder if we may finally be on the brink of answering the 
centuries' old question, ``Are we alone in the universe?''
    Finding other sentient life in the universe would be the most 
significant discovery in human history. Scientists estimate that there 
are 800 billion stars in the Milky Way. To date, more than 1,700 nearby 
planets have been found by the Kepler Space Telescope.
    Last month, astronomers discovered the first Earth-like planet 
orbiting its star at a distance where liquid water could be present, a 
condition thought essential to life. Called Kepler 186f, it is only 10% 
larger than Earth and is 490 light years away.
    The Transiting Exoplanet Survey Satellite, which will launch in 
2017, and the James Webb Space Telescope, launching in 2018, will help 
scientists discover more planets with potential biosignatures.
    The United States has pioneered the field of astrobiology and 
continues to lead the world in this type of research. A sample of 
professional papers published in Science magazine between 1995 and 2013 
illustrates the significant growth and growing popularity of the field 
of astrobiology. Between 1995 and 2012, the number of papers published 
on astrobiology increased ten times and the number of scientific 
reports that cited astrobiology increased 25 times.
    Astrobiology is a serious subject studied by serious scientists 
around the world. Reflecting this interest, next September the Library 
of Congress and NASA will hold a two day astrobiology symposium on what 
the societal impacts could be of finding microbial, complex or 
intelligent life in the universe.
    Whether life exists on other planets in the universe continues to 
be a matter of debate among scientists. Around the world a number of 
astronomers listen to naturally occurring radio frequencies. They try 
to filter out the cosmic noise and interference of human-made 
satellites and spacecraft to find anomalies that could be signals from 
civilizations elsewhere in the universe.
    The Allen Telescope Array at the SETI Institute, financed by 
Microsoft co-founder Paul Allen, and the Arecibo telescope in Puerto 
Rico are two well-known locations for conducting radio astronomy 
searches for life in the universe.
    Recently radio astronomers have detected pulsed signals that last 
only a few milliseconds. These ``Fast Radio Bursts'' have caused 
scientists to speculate as to their cause. Some scientists hypothesize 
they could be from stars colliding or from an extraterrestrial 
intelligent source. Other astronomers search for laser light pulses, 
instead of radio waves. Researchers at the SETI Optical Telescope, run 
by the Harvard Smithsonian Center for Astrophysics, the Columbus 
Optical SETI Observatory and the University of California at Berkeley, 
among others, use optical telescopes to try to detect nanosecond pulses 
or flashes of light distinct from pulsars or other naturally occurring 
phenomena.
    I hope today's hearing will enable us to learn more about how 
research in astrobiology continues to expand this fascinating frontier. 
The unknown and unexplored areas of space spark human curiosity. 
Americans and others around the world look up at the stars and wonder 
if we are alone or is there life on other planets.

    Chairman Smith. That concludes my opening statement, and 
the Ranking Member, the gentlewoman from Texas, Ms. Johnson, is 
recognized for hers.
    Ms. Johnson. Thank you very much, Mr. Chairman, and good 
morning. In the interest of saving time I will forgo making an 
opening statement and instead I will simply want to welcome Dr. 
Shostak and Dr. Werthimer to this morning's hearing on the 
search for life, including intelligent life, in outer space. 
You both are distinguished researchers and I know that you will 
have thoughtful testimony to present, and this afternoon will 
determine whether we will have researchers to continue this.
    So thank you and I yield back.
    Chairman Smith. Thank you, Ms. Johnson.
    And I would like to introduce our witnesses at this point.
    Our first witness, Dr. Seth Shostak, is a Senior Astronomer 
at the SETI Institute in Mountain View, California. He has held 
this position since 2001. Dr. Shostak has spent much of his 
career conducting radio astronomy research on galaxies. Dr. 
Shostak has written more than 400 published magazine and web 
articles on various topics in astronomy, technology, film, and 
television. He has also edited and contributed to nearly a 
dozen scientific and popular astronomy books. He has authored 
four books, including ``Sharing the Universe: Perspectives on 
Extraterrestrial Life'' and ``Confessions of an Alien Hunter: a 
Scientist's Search for Extraterrestrial Intelligence.'' You can 
hear him each week as host of a one-hour-long radio program on 
astrobiology entitled ``Big Picture Science.''
    Dr. Shostak received his bachelor's in physics from 
Princeton and his Ph.D. in astrophysics from the California 
Institute of Technology.
    Our second witness, Dr. Dan Werthimer, has worked at the 
Space Sciences Laboratory at UC Berkeley since 1983. He is 
currently the Director of several of the lab's centers, 
including the SETI Research Center and the Center for Astronomy 
Signal Processing and Electronics Research.
    Additionally, Mr. Werthimer serves as Chief Scientist for 
the lab's <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="421107160b022a2d2f27">[email&#160;protected]</a> program and Associate Director of their 
Berkeley Wireless Research Center. Mr. Werthimer co-authored 
``SETI 2020'' and was the editor of ``Bioastronomy: Molecules, 
Microbes, and Extraterrestrial Life'' and ``Astronomical and 
Biochemical Origins and the Search for Life in the Universe.''
    His research has been featured in many broadcast news 
stories such as on ABC and CBS and many major newspapers and 
magazines. His work also has reached a younger audience through 
Scholastic Weekly, a science magazine for kids.
    Mr. Werthimer received his bachelor's and master's degrees 
in physics and astronomy from San Francisco State University.
    I will recognize to start us off today Dr. Shostak and then 
we will go to Mr. Werthimer.

                 TESTIMONY OF DR. SETH SHOSTAK,

            SENIOR ASTRONOMER AT THE SETI INSTITUTE

    Dr. Shostak. Thank you, Congressman Smith, for the 
opportunity to be here.
    I am just going to give you a few big-picture thoughts on 
the search for life and in particular intelligent life, the 
kind of life that could uphold its side of the conversation as 
opposed to the microbial sort of life. This is obviously a 
subject of great interest to many people.
    Let me just back up and say that when you read in the paper 
about the discovery of a new planet or something, water on 
Mars, you are looking at one of three horses in a race to be 
the first to find some extraterrestrial biology. The first 
horse is simply to find it nearby, and that is where the big 
money is. Rovers on Mars, the moons of the outer solar system. 
There are at least a half a dozen other worlds that might have 
life in our solar system. The chances of finding it I think are 
good, and if that happens, it will happen in the next 20 years, 
depending on the financing.
    The second horse in that race is to build very large 
instruments that can sniff, if you will, the atmospheres of 
planets around other stars and maybe find oxygen in the 
atmosphere or methane, which, as you know, is produced by cows 
and pigs and things like that, but biology in any case. And--so 
you could find pigs in space, I suppose. That is again a 
project depending on funding that could yield results in the 
next two decades.
    The third horse in that race is SETI, Search for 
Extraterrestrial Intelligence, and that idea, if you have seen 
the movie Contact you know what the idea is, is to eavesdrop on 
signals that are either deliberately or accidentally leaked off 
somebody else's world. That makes sense because in fact even 
we, only 100 years after Tesla and Marconi and the invention of 
practical radio, we already have the technology that would 
allow us to send bits of information across light years of 
distance to putative extraterrestrials.
    Let me just tell you why I think they are out there, by the 
way. That--you know, it is unproven whether there is any life 
beyond Earth. That is the situation today. You have heard me 
say twice now that I think the situation is going to change 
within everyone's lifetime in this room. Okay. And the reason 
is we are--the universe is a fecund place for life. Congressman 
Smith has mentioned the number of stars in our galaxy. With 
respect, that number is actually rather larger. It is something 
like 200 to 400 billion stars, but we now know that at least 70 
percent of them have planets. Recent results from NASA's Kepler 
telescope, an astoundingly successful instrument, suggest that 
one in five stars may have planets that are cousins of the 
Earth. What that means is that in our own galaxy there are tens 
of billions of other planets that are the kind you might want 
to build condos on and live. Okay. Tens of billions. And if 
that isn't adequate for your requirements, let me point out 
there are 150 billion other galaxies we can see with our 
telescopes, each with a similar complement of Earthlike worlds.
    What that means is that the numbers are so astounding that 
if this is the only planet on which not only life but 
intelligent life has arisen, then we are extraordinarily 
exceptional. It is like buying trillions of lottery tickets and 
none of them is a winner. That would be very, very unusual. And 
although everybody likes to think that they are special, and I 
am sure you all are, maybe we are not that special. Certainly 
the history of astronomy shows that every time we thought we 
were special, we were wrong.
    So what has been done so far, we have had various kinds of 
radio searches. I won't detail the technology. We have looked 
at much of the sky at fairly low sensitivity over a limited 
range of radio wavelengths, radio sections of the band. We have 
looked in particular directions at a few thousand star systems. 
In other words, we have just begun the search. The fact that we 
haven't found anything means nothing. It is like looking for 
megafauna in Africa and giving up after you have only examined 
one city block. And the reason the search has been so cramped 
and constricted so far is simply, to be honest, the fact that 
there is no funding for this. It is all privately funded. The 
total number of people in the world that do SETI for a living 
is fewer than the number of people in any row in the audience 
here behind me. That is the world total for this endeavor.
    When are we going to find them? You have already heard me 
suggest that that may happen rather quickly. Let me just point 
out two other things. One, this is very interesting to the 
public because they have seen extraterrestrials on television 
and in the movies all their lives, okay. That also gives it a 
certain giggle factor. It is very easy to make fun of this. On 
the other hand, it would have been easy to make fun of 
Ferdinand Magellan's idea to sail around the Earth or Captain 
Cook to map the South Pacific. It is exploration. That is what 
this is.
    The consequences are always, shall we say, salubrious. To 
find that there is life out there, intelligent life, would 
calibrate our position in the universe. It would, as 
Congressman Smith says, probably be the greatest discovery that 
humankind could ever make, and what is important is this is the 
first generation that has both the knowledge and the technology 
to do that.
    [The prepared statement of Dr. Shostak follows:]

    [GRAPHIC] [TIFF OMITTED] 

    
    Chairman Smith. Thank you, Dr. Shostak.
    And, Mr. Werthimer.

                TESTIMONY OF MR. DAN WERTHIMER,

              DIRECTOR OF THE SETI RESEARCH CENTER

           AT THE UNIVERSITY OF CALIFORNIA, BERKELEY

    Mr. Werthimer. Thanks for the opportunity--thank you for 
the opportunity to talk to you about this question, are we 
alone? Is anybody out there?
    Can you guys show the slides? I want to walk you through 
some of the SETI experiments that we and other people are 
doing.
    Mr. Werthimer. So, as Seth mentioned, this NASA Kepler 
mission, from that we have learned that there are a trillion 
planets in our Milky Way galaxy. That is more planets than 
there are stars, lots of places for life. And we have learned 
that a lot of these planets are what we call Goldilocks 
planets, at the right distance where it is not too hot, not too 
cold, rocky planets, some have liquid water. So there could be 
a lot of life out there.
    So how are we getting in touch? Well, one of the ideas is 
that earthlings have been sending off radio, television, radar 
signals out into space for the last 75 years. The early 
television shows like I Love Lucy, Ed Sullivan have gone past 
10,000 stars. The nearby stars have seen the Simpsons. So you 
could turn that around. If we are broadcasting, maybe other 
civilizations are sending signals in our direction either 
leaking signals the way that we unintentionally send off 
signals or maybe a deliberate signal.
    They could be sending laser signals, and there are a number 
of projects looking for laser signals. This is a project that 
Harvard University, a very clever project, this is a project at 
Lick Observatory. There is also a project at the--in Hawaii at 
the Keck Telescope looking for laser signals.
    People are also looking for radio signals. Our group uses 
the world's largest radio antenna. We call it a radio 
telescope. This is the Arecibo telescope in Puerto Rico. It is 
1,000 feet in diameter. It holds 10 billion bowls of 
cornflakes. We haven't actually tried that. It is operated by 
the National Science Foundation, and most astronomers would be 
lucky to use this telescope a day or two a year. We figured out 
a way to use the telescope at the same time that other 
scientists are using it so we can actually collect data all 
year round, all day. We are collecting data right now as we 
talk to you.
    Now, that is actually a problem. So even though we have got 
the world's largest telescope all year round, it creates an 
enormous amount of data. And to analyze the data we asked 
volunteers for help. They--if you--you can help us by running a 
program on your home computer or your laptop or your desktop 
computer. You install a program called <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="174452435e577f787a7239">[email&#160;protected]</a> It is a 
screensaver program, and the way--we take the data from the 
world's largest telescope and we break it up into little 
pieces. Everybody gets a different piece of the sky to analyze. 
Then you install this program and it pops up when you go out 
for a cup of coffee and the computer goes through the data 
looking through all the different frequencies and signal types. 
This is what it looks like when it is running on your computer 
at home.
    It takes a few days to analyze that data looking for 
interesting signals. And then when it finds interesting 
signals, it sends them back to Berkeley and then you get a new 
chunk of data, different part of the sky to work on.
    If you are the lucky one that finds that faint murmur from 
a distant civilization, you might get the Nobel Prize, but 
there is a catch. The Nobel Prize--you have to maybe share with 
a lot of people. There are millions of people that have 
downloaded the <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="94c7d1c0ddd4fcfbf9f1">[email&#160;protected]</a> screensaver. They are split out into 
200 countries. It is--together, the volunteers have formed one 
of the most powerful supercomputers on the planet and they have 
enabled the most sensitive search for extraterrestrial signals 
that anybody has ever done. So we are very grateful to the 
volunteers.
    And now we have made that more general so that you can 
participate in not just SETI with your home computer but you 
can participate in lots of projects. There is climate 
prediction projects, there is a gravity wave project, there is 
protein folding. You can look for malaria drugs, HIV drugs, 
cancer drugs and you can allocate how you want your spare 
computing cycles to be used on your home computer.
    One of the new projects we are working on is called 
Panchromatic SETI, and we are asking universities and 
observatories around the world to look at a lot of different 
wavelength bands, a lot of different frequencies. We are 
targeting the very nearest stars and we are trying to cover all 
the different bands that come through the Earth's atmosphere. 
We are looking at radio frequencies, we are looking at infrared 
frequencies or wavelengths, and we are looking at also optical 
frequencies looking for laser signals. And this will be an 
extremely comprehensive search because we have got eight 
different telescopes that we are using and looking at all these 
different bands but only targeting the nearby stars.
    Another project that we are just launching this year is 
called Interplanetary Eavesdropping, and the idea of this 
project is that there may be signals going back and forth 
between two planets in a distant solar system. For instance, 
maybe eventually we will have machines or people on Mars and we 
will have radio communication or laser communication between 
our two planets. Well, put it the other way. A distant 
civilization may have colonized a planet in their own solar 
system and there may be radio or laser signals going back and 
forth between those two planets. And now with the Kepler 
spacecraft we know exactly when two planets in a distant solar 
system are lined up with Earth so we can schedule our 
observations and target that and see if we can intercept those 
signals going back and forth between two distant planets. We 
are using that--the Green Bank telescope in West Virginia to do 
that experiment.
    While we haven't found ETs so far but we have made a lot of 
interesting discoveries. We have discovered a planet made out 
of solid diamond. We have made the first maps of the black hole 
of the center of the galaxy. These instruments are used in all 
kinds of things, in brain research which may eventually control 
prosthetic arms, but we haven't found ET so far. We are still 
working on it. We are just getting in the game. We have only 
had radio 100 years. We are just learning how to do it. It is 
like looking for a needle in a haystack but I am optimistic in 
the long run.
    The reason I am optimistic in the long run is that the SETI 
is limited by computing technology, which is growing 
exponentially. It is limited by telescope technology. China is 
building a huge telescope, bigger than Arecibo. The Australians 
and South Africans and the Europeans are working on a huge 
telescope made out of thousands of dishes combined to make a 
giant telescope.
    And I think I will stop there. I have got a couple of poems 
that I could read you from the volunteers but I am out of time. 
Thank you very much.
    [The prepared statement of Mr. Werthimer follows:]

    [GRAPHIC] [TIFF OMITTED] 

    Chairman Smith. Okay. Thank you, Mr. Werthimer.
    Thank you both for your excellent testimony, and actually 
you have anticipated my questions a little bit but I would 
still like to go forward with them.
    And let me address the first question to both of you all 
but starting with Dr. Shostak. And it is this, kind of a two-
part question. What do you think--and I can anticipate your 
answer a little bit on the basis of your statement--but what do 
you think is the possibility of microbial life being found in 
the universe or intelligent life being found in the universe? 
So the first question goes to the possibility. The second 
question would be what you think is the likelihood of finding 
either microbial life or intelligent life in the universe, two 
different kind of questions, Dr. Shostak.
    Dr. Shostak. Well, the probability of life of course is 
hard to estimate because what we do know now and something we 
didn't know until very recently, even 10, 20 years ago, is that 
there are habitats that could support life. What astronomy has 
proven in the last 500 years is that the entire universe is 
made out of the same stuff, right. The most distant galaxies 
have the same 92 elements that were on the wall in your 9th 
grade classroom. So this means that if you have taken chemistry 
in school you don't have to take it again if you move to 
another galaxy. It is all the same everywhere.
    We know that the building blocks are there. We now know 
that there are going to be plenty of planets where you have 
liquid water and an atmosphere, the kind of salubrious 
conditions that you have in Hyattsville, for example, so that 
life could arise on any of these places.
    We also know that life began on Earth very, very quickly. 
Now this is only a sample of one, so it is not entirely 
convincing, but it does suggest that it wasn't very difficult 
for life to get a foothold on this planet, and maybe elsewhere. 
So life I think is perhaps not so hard to get started. That is 
sort of the general impression among scientists. But what they 
believe is not so important; it is finding it that is 
important.
    The second part of your question, what about intelligent 
life, that is a lot harder. The Earth has had life we know for 
at least 3.5 billion, probably 4 billion years, almost since 
the beginning. This place has been carpeted with life and 
almost all of that time it required a microscope to see it. It 
was all microbial. Only in the last 500 million years did we 
get multicellular life, eventually trilobites, dinos, you know 
the whole story, okay.
    That opens up the question, well, you know, if I give you a 
million worlds with life, what fraction of them is ever going 
to cook up something as clever as you all? And the answer to 
that is we don't know the answer to that. However, there are 
indirect suggestions that it will happen given enough time 
simply because we are not the only species that has gotten 
clever in the past 50 million years. If you have dogs and cats 
at home, they are cleverer than the dinosaurs. Intelligence 
does pay off.
    Chairman Smith. Thank you, Dr. Shostak.
    By the way, you have made a point that I might emphasize 
and that is that 20 years ago we hadn't detected a single 
planet outside our solar system. Now, we are up to close to 
2000 so it is almost exponential growth in astrobiology 
research.
    Mr. Werthimer.
    Mr. Werthimer. I suspect the universe is teaming with 
microbial life. It would be bizarre if we are alone but I don't 
know that for sure. The intelligence is going to be rarer, but 
because there are trillion planets, I believe it is going to 
happen often. It has happened several times on this planet and 
it is likely to arise elsewhere.
    Chairman Smith. And as you would put it, at 100 percent 
then?
    Mr. Werthimer. 99.
    Chairman Smith. Yeah, 99.9999 and strung on out. Okay. 
Good.
    The next question, Mr. Werthimer, let me follow up with 
you. And by the way, as far as the <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="80d3c5d4c9c0e8efede5">[email&#160;protected]</a> screensaver goes, 
that would be something for the students here to take advantage 
of as well as Members. I tried to adapt that to my laptop in my 
office several years ago and was not able to, so maybe we will 
talk some more. Maybe the government needs to change its 
policy; I am not sure which.
    But let me ask you what are the advantages and 
disadvantages of radio SETI versus optical SETI?
    Mr. Werthimer. There are lots of pros and cons. Lasers are 
good for point-to-point communication and lots of bits per 
second, lots of data. I think the best strategy is a multiple 
strategy. We should be looking for all kinds of different 
signals and not put all our money in one basket.
    It is hard to predict what other civilizations are doing. 
If you had asked me a 100 years ago what to look for I would 
have said smoke signals, so we tried to launch a new SETI 
project, a new idea every year.
    Chairman Smith. Okay. And, Dr. Shostak, anything to add to 
the advantages or disadvantages of radio versus optical SETI?
    Dr. Shostak. I should point out that they are both sort of 
different colors of the same thing, in fact literally different 
colors because they are both electromagnetic means of 
communication and we use both in our telecommunications here on 
Earth and I suspect the aliens will as well.
    I have to say that just about every week I get an email 
from somebody who says you guys are looking for radio signals? 
That is so old school. The extraterrestrials, assuming they are 
out there, will use something much more sophisticated than that 
and I am not sure what that is. That depend on physics we don't 
know. And one shouldn't discount a technology simply because it 
has been around a while. We use the wheel every day. That is a 
pretty old technology. I suspect we will continue to use the 
wheel for a long time.
    Chairman Smith. Okay. And thank you both for your answers 
to my questions.
    And the Ranking Member Ms. Johnson is recognized for her 
questions.
    Ms. Johnson. Thank you very much. I am trying very hard to 
ask something that sounds sensible.
    What is the status of the extraterrestrial intelligence 
research now?
    Mr. Werthimer. So I think we are just getting in the game; 
we are learning how to do this and I think we would be lucky to 
find--even though I am optimistic about life and intelligent 
life in the universe and it is likely there is a whole galactic 
internet out there, I think we would be lucky to find them now 
but I am optimistic in the long run.
    Dr. Shostak. Congressman Johnson, I might point out that 
contrary to popular impression, this experiment isn't the same 
from day-to-day. People figure we are sitting around with 
earphones listening in to cosmic static every day, a rather 
tedious job if that is what it were. But it is not. All the 
listening is done by computers.
    But the really important point is that much of this 
experiment depends on digital technology, computers if you 
will. And as you know, there is something called Moore's law 
which says that whatever you can buy today for a dollar you can 
buy twice as much for a dollar two years from now. There is 
this very rapid growth in the capabilities there.
    So in fact this search is speeding up and it is actually 
speeding up exponentially, a very heavily overused word 
exponentially, but in fact it applies.
    Ms. Johnson. Tell me this. I know that the improvement of 
technologies are important and yet some of the old technologies 
or old techniques are also still in play. How do you predict 
your advancement based on what you have available to you for 
research tools?
    Dr. Shostak. I will just say something. I am sure Dan has 
much to add to this. But in terms of that we can do in the near 
future, the foreseeable future, what you really I think need to 
do if you want to have a decent chance of success--and mind 
you, this has to remain speculative; I mean this is all like 
asking Chris Columbus two weeks out of Cadiz, you know, hey, 
have you found any new continents lately? And his answer would 
be, well, there was only water around the ship today, and by 
the way also yesterday water around the ship and tomorrow it is 
going to be fairly aqueous in the vicinity of the ship, okay. 
So he can't predict when anything interesting is going to 
happen, nor can we.
    But if you look at what are called euphemistically 
estimates--and they are guesses--as to what fraction of stars 
out there that house somebody that you might be able to pick 
up, it sounds like you have to look at a few million star 
systems to have a reasonable chance of success. We can't do 
that today. We have not that today. We have done less than one 
percent of that as of today, okay. But given the predictable 
advancements in technology, to look at a few million star 
systems is something that can be done within two dozen years 
given, you know, the funding to do it.
    Mr. Werthimer. Seth captured it well.
    Ms. Johnson. Now, when we find the other life on other 
planets, what do you speculate we would find and what is of 
value or potential value?
    Mr. Werthimer. I think it is profound either way. This is 
not an expensive thing, of order $1 million a year we are 
founded by National Science Foundation, NASA, Templeton 
Foundation, some private donations.
    The reason I think it is profound either way if we discover 
that we are alone, we had better take really good care of life 
on this planet. It is very precious.
    And the other thing that is profound, too, if we are--find 
that we are part of a galactic community and get on the 
galactic internet and learn all their poetry, music, 
literature, science, we could learn a lot.
    Dr. Shostak. I would just add briefly nobody knows what we 
will learn. If we can decode this signal, this is sort of like 
being confronted with hieroglyphics. You know, you might be 
able to figure them out. In the case of the hieroglyphics, it 
wasn't so hard. It turns out the hieroglyphics were written by 
humans so that made it a lot easier. And there was also the 
Rosetta Stone and whatever.
    So we might not ever figure it out, okay. If you could, you 
would be listening to data being sent by societies that are far 
in advance of us because we are hearing them, not the other way 
around. So they are more advanced and maybe they teach you some 
very important stuff. Who knows? I mean imagine that the Incas 
find a barrel that is washed up on the shore, you know, maybe 
from Europe and it is filled with books. If they could ever 
figure out the books, they would learn a lot of interesting 
stuff. I don't know that we will ever figure out the books, but 
even if we don't, the important point has been made, and that 
is we have calibrated our place not in the physical universe, 
we have sort of done that, but calibrated our place in the 
biological and even more--the intellectual universe. And I 
think that that is maybe good for our souls to know how we fit 
in.
    Ms. Johnson. Thank you very much. My time has expired.
    Chairman Smith. Thank you, Ms. Johnson.
    The gentleman from Ohio, Mr. Johnson, is recognized for his 
questions.
    Mr. Johnson. Thank you, Mr. Chairman.
    Gentlemen, for both of you, how has the recent discovery of 
over 1,700 planets by the Kepler space telescope--how has that 
impacted SETI research?
    Mr. Werthimer. If you had asked astronomers 20 years ago 
are there planets going around other stars, we would have said, 
well, we think so but we don't know. And that has all changed 
now. And a lot of it is due to NASA's Kepler mission. And if 
you extrapolate on the planets, which are a few thousand 
planets that they have discovered, if you extrapolate on that, 
there are a trillion planets in the Milky Way galaxy. That is 
about three or four times more planets that there are stars, so 
that has got a lot of places for life.
    Mr. Johnson. Okay.
    Dr. Shostak. I think that it has also affected the 
experiments in the sense that in the past we would point the 
telescopes in the direction of stars, certain kinds of stars, 
certain masses of stars, certain brightnesses of stars. Those 
stars were the ones that we thought might have an Earthlike 
planet, but we didn't know. We now know two things. One, as Dan 
has just mentioned, we know that the majority of stars have 
planets. So you can just look at a random star and feel fairly 
confident that it has planets. But more than that, we are 
beginning to get some indication from Kepler what fraction of 
stars have planets that are sort of like the Earth, and that 
fraction is not one in a million, it is not 1 in 1,000, it is 
not 1 in 100. It may be one in five. So you look at, you know, 
50 star systems and you have examined 10 Earthlike planets. So 
in some sense it has made the search much more straightforward. 
We just look at all the nearby stars we can.
    Mr. Johnson. Okay. Well, Dr. Shostak, would you please 
provide some examples of the technical contributions that SETI 
has made to astronomy and other fields? For example, how has 
SETI research benefited other areas of science?
    Dr. Shostak. Well, I think that its benefit is less so in 
terms of the discovery. Obviously we haven't found ET. If we 
had, we wouldn't be having this hearing, okay. But--and to my 
surprise, I have to say SETI has not turned up any 
astrophysical phenomena that were unexpected as well, okay. And 
that is surprising. Normally, the history--the precedent in 
astronomy is that every time you build an instrument that 
examines a different if you will parameter in the phase space 
of the universe, you find something new. So it is instructive 
that it has not.
    The kind of technology that has been developed is certainly 
of interest to other fields in astronomy. But I think the real 
value of SETI is not so much in terms of what it does to 
astronomy but what it does in terms of the other efforts being 
made to find life in space. NASA has a big effort. You know, 
the rovers on Mars, yes, they are there to find the hydrology, 
the history of water on Mars, but why are you interested in the 
history of water on Mars? You are interested because you want 
to know were there ever Martians, you know, microbial most 
likely, or are there still Martians? That is what interests 
people the most.
    And SETI was always, if you will, a punch line to this 
story that NASA had about finding, you know, the traces of 
water on Mars or burrowing through the ice on Europa and 
Enceladus, some of these moons of the outer solar system where 
there may be vast quantities of liquid water, that sort of 
thing.
    SETI was always that, okay, life-- we may find life, but 
what about intelligent life? That would be even more 
interesting. And that is what is missing from the NASA program 
today.
    Mr. Johnson. Okay. You made a comment just a few minutes 
ago that kind of caught my attention. Let me make sure I got it 
right. You said that if we hear from intelligent life out there 
somewhere that they must be more advanced than us because we 
are hearing from them and not the other way around. How can you 
draw that conclusion? I mean maybe they have been hearing from 
us for a long time and just don't like what we have to say.
    Mr. Werthimer. Um-hum. I think it is entirely possible that 
we are on their--in their catalog. They have seen oxygen in our 
atmosphere and they know we are out here. And I think life in 
the universe is going to be--there is going to be lots of 
different stages. Some of it is going to be microbial, some of 
it will be trees, more sophisticated. The Earth is 5 billion 
years old, some stars are 10 billion years old, so there could 
be a lot of advanced civilizations as well.
    Mr. Johnson. Um-hum. Okay.
    Dr. Shostak. Just to point out that you are not going to 
hear from any less advanced societies. They are not building 
radio transmitters.
    Mr. Johnson. Well, yeah, I would say----
    Dr. Shostak. That is for sure.
    Mr. Johnson. I would say at least equal to, perhaps more 
advanced, but, you know, maybe they got their caller ID block 
turned on or something.
    Dr. Shostak. It could be. I wouldn't speculate on alien 
sociology and whether they would like our television or not so 
I don't know about that. But the chances that if they are at 
least at our level that they are within 100 or even 1000 or 
even 10,000 years of our level is simply on statistical grounds 
highly uncertain. If you hear from somebody, they are way 
beyond you.
    Mr. Johnson. Yeah. One final quick question for both of 
you. How would you define successful SETI research? I mean I 
know that is kind of a nebulous question but----
    Dr. Shostak. Finding the signal.
    Mr. Johnson. --how would you define it successful?
    Dr. Shostak. If you found a signal that could be 
corroborated. If you just find it once and you can't find it 
again, it is not science. So if you find a signal that is 
moving across the sky the way the stars do because of the 
rotation of the Earth, it is a narrow band signal, it is not 
made by nature, it is made by a transmitter, that is success.
    Mr. Johnson. Right. Okay.
    Mr. Werthimer. I think the most likely scenario is finding 
some sort of artifact of their technology, a radar signal or a 
navigational beacon or something. That won't contain a lot of 
information but we will know we are not alone.
    Mr. Johnson. Okay. Thank you, Mr. Chairman. I yield back.
    Chairman Smith. Thank you, Mr. Johnson.
    The gentlewoman from Oregon, Ms. Bonamici, is recognized 
for her questions. And if the gentlewoman will just yield to me 
for 10 seconds.
    Ms. Bonamici. Certainly.
    Chairman Smith. It was mentioned a while ago that the 
likelihood is if there were other intelligent civilizations, 
they would likely be far and--more advanced than we are. We are 
a relatively junior galaxy. They might be two--I don't know, 
two billion years older than we are and it is just fascinating 
to think what form of life might be existent in a universe or a 
parallel universe or another galaxy where they have had a two 
billion year head start. We might not even recognize the 
sentient beings. We might not be able to communicate with them, 
but that is just one of the reasons why we are fascinated by 
the subject.
    And none of this will be counted or charged against the 
gentlewoman's five minutes for questions.
    Ms. Bonamici. Thank you, Mr. Chairman.
    Thank you so much, Dr. Shostak and Mr. Werthimer, for being 
here. I noticed in your testimony, Mr. Werthimer, that you said 
that there are 24 SETI scientists on the planet and I can't 
think of a time in this Committee were we have had a larger 
percentage of experts on our panel. So thank you both so much 
for being here. I really appreciate it.
    And, Dr. Shostak, I really am intrigued by your section in 
your testimony on the public's interest and how the idea of 
life in space is an idea that everyone grasps and is especially 
an ideal hook for interesting young people in science. I think 
that is evidenced by the full Committee room today.
    One of the statements that resonated with me is ``it would 
be a cramped mind indeed that didn't wonder who might be out 
there.'' I really appreciate that. You said also in your 
testimony ``extraterrestrials are the unknown tribe over the 
hill, potential competitors or mates, but in any case, someone 
we would like to know more about.'' And I recollect a similar 
hearing in this Committee. I believe it was last year when one 
of my colleagues--and I am fairly certain it was Representative 
Chris Smith, who is no longer on the Committee, said the 
interesting question is what do we do when we find the life on 
another planet?
    So can you talk, both of you, about what is the plan? Do we 
announce it to the world? Do we do research more to determine 
if these are friendly or collaborative? Or what do we do when 
we make the discovery, assuming that it is going to happen?
    Dr. Shostak, would you like to begin?
    Dr. Shostak. Yes. That is a question of great interest to 
the public and of great importance as well. To begin with, 
there is no danger. You tune in your favorite DJ here in D.C. 
on the car radio and there is no danger that that DJ is going 
to jump into the car next to you and give you a hard time 
because they don't know that you have picked them up. So if we 
pick up a signal, they don't know that.
    There is the question of, well, should we reply? I will get 
to that in just a second. But what happens then? Suppose we do 
pick up this signal? It would be announced. The public has the 
idea that you all have a secret plan, that the government has a 
secret plan for what to do if we pick up a signal. As far as I 
can tell, there is no plan, okay. And we have had false alarms 
and I have waited for my Congressman to call me up and say, 
hey, you guys are picking up a signal. What about that? And 
nobody in the government shows the slightest bit of interest to 
be quite honest. What happens is that the media start calling 
up, the New York Times will call up, right, but the media--or, 
sorry, the government is not so interested.
    So what would happen is that it would immediately be known 
that we had found this signal and it would be known even before 
it had been corroborated. So there are going to be false 
alarms. Be prepared for that. But what you do is you get 
somebody in another observatory to also observe it. You would 
not believe it yourself if you were the only ones to find it. 
There are too many things that could go wrong, okay.
    Ms. Bonamici. Mr. Werthimer, do you have anything to add to 
that?
    Mr. Werthimer. Yeah. I think before you make a big 
announcement you want to make sure it is real. You ask a 
different telescope with different people, different software, 
different equipment to see if they can verify it. Then you can 
triangulate, make sure it is coming from something outside. You 
make sure it is not a graduate student playing a prank on you. 
And once you have some confidence that you have found 
something, you may not know what it is. It could be some new 
astrophysical phenomena. When pulsars were discovered, they 
thought maybe they had found little green men. So I think you--
then you--at the point where you are pretty confident that you 
have found something, you make all the information public, the 
coordinates in the sky, the frequency, anything you know about 
the signal, and then I think there will be a lot of debate 
about whether there is some new natural phenomena or this is 
really evidence of another civilization. A lot of people will 
be working on that problem.
    Ms. Bonamici. And could you also address of the 24--you say 
the 24 SETI scientists on the planet, to what extent are other 
nations involved? How collaborative are we? We have a lot of 
discussions in this Committee about international 
collaboration, especially in space. So can you talk about where 
we are as a nation compared with the other countries in the 
world----
    Mr. Werthimer. Yeah.
    Ms. Bonamici. --on this issue?
    Mr. Werthimer. SETI is quite fragile. As you said, there 
are 24 people doing it. There are about two thirds of them in 
the United States. The United States is leading this effort and 
a lot of the original ideas have come out of the United States. 
But there is--we are working with other scientists in other 
countries, and because it is so fragile, we are trying to train 
new people and get new ideas and get other groups because it is 
only at a very small number of institutions right now. The 
funding is fragile, too. It is fluctuating around.
    The two biggest telescopes on the planet are currently 
funded by the National Science Foundation, the Green Bank 
telescope in West Virginia, the Arecibo telescope. Those are in 
funding jeopardy. It looks like one of those observatories is 
probably going to have to be shut down. The other is just 
hanging by a thread. The Chinese are building a bigger 
telescope. There is a new one going to be built in South Africa 
and Australia. So the United States may not continue to lead 
this work but it is now.
    Ms. Bonamici. I would find that disappointing if that 
happened.
    And then I am out of time. I yield back the balance of my 
time. Thank you, Mr. Chairman.
    Chairman Smith. Thank you, Ms. Bonamici.
    And the gentleman from New York, Mr. Collins, is recognized 
for his questions.
    Mr. Collins. Thank you, Mr. Chairman.
    I think I might ask the question everyone in this room 
wants to ask. Have you watched Ancient Aliens and what is your 
comment about that series?
    We will start with you, Dr. Shostak.
    Dr. Shostak. Yes, I think I have been on it actually, more 
than once. The public is fascinated with the idea that we may 
be being visited now or may have been visited in the past, the 
so-called UFO phenomenon. I personally don't share the 
conviction that we are being visited. I don't think that that 
would be something that, you know, all the governments of the 
world had managed to obfuscate, to keep secret. I don't think--
I don't believe that.
    But the idea that maybe we were visited during the time of 
the ancient Egyptians and so forth, keep in mind that in the 
4.5 billion year history of the Earth the time of ancient 
Egyptians was yesterday, right. So, again, why were they there 
then? What was it that brought them to Earth? I have no idea 
and I don't find very good evidence. I don't think--I think the 
pyramids, for example, were probably built by Egyptians. I know 
that that is a radical idea for some people but the Egyptians 
were very clever and they could certainly do that.
    So I don't think that there is any good evidence that 
convinces me that we were visited in historic times.
    Mr. Collins. How about you, Mr. Werthimer?
    Mr. Werthimer. UFOs have nothing to do with 
extraterrestrials, so even though I am optimistic with life, 
there is no evidence that any of these sightings--I think some 
of these sightings are real phenomena. We get a lot of calls 
when the Space Station goes over, although some people 
embellish and they say it has windows and things. And some of 
it is people's imagination and we know that because it ties 
very closely to popular culture. When Jules Verne wrote about 
flying saucers, everybody sees--started seeing flying saucers. 
Before that, people saw angels. When people watch movies, then 
we get a lot of reports that are tied to what is in the movies. 
And some of it is actually deliberate hoaxes, you know, for 
people making money.
    Mr. Collins. Yeah. Thank you. I think that was my only 
question, Mr. Chairman. I yield back.
    Chairman Smith. Thank you, Mr. Collins.
    The gentlewoman from Maryland, Ms. Edwards, is recognized 
for her questions.
    Ms. Edwards. Thank you, Mr. Chairman. I feel like I should 
have been here earlier so I apologize. I have enjoyed the 
discussion thus far and reading the testimony.
    You know, my favorite movie is Contact, right, so every 
year it comes out since 1997 I watch it. I dream. I think, 
well, you know, who knows? What is intriguing about this 
conversation is the idea that--and it is a little bit of 
hubris, right, that somehow we are waiting to find them as 
opposed to them finding us. And maybe that is just the nature 
of Homo sapiens. That is kind of what we do.
    But I am a little bit curious. Dr. Werthimer, in your 
prepared statement you discuss the panchromatic SETI project, 
which will use six telescopes to search nearby stars and stars 
most likely to host an exoplanet system similar to the sun's. 
And so the project as you described it would examine a large 
portion of the electromagnetic spectrum spanning from low 
frequencies through optical light to detect possible signals 
from advanced civilization. How are the target stars that you 
have talked about identified and how are you going to 
coordinate the use of the six telescopes?
    Mr. Werthimer. We are not trying to use the telescopes all 
at the same time. That is actually hard to do so we just--we 
use a telescope. And other groups are--we are working with a 
lot of groups at universities and observatories. But typically, 
we will use one telescope and then a month later we will use 
another telescope, and so on.
    The stars that we are targeting, we--instead of targeting 
stars that we know have planets because of Kepler spacecraft, 
it looks like all stars have planets, so we are just going to 
target the nearest stars. So that is our plan is just target 
the nearby stars.
    Ms. Edwards. Great. And you talked also about this notion 
that there are just sort of 24 of you folks most interested 
robustly, academically studying this, but aren't there like a 
whole--there is a whole network of people out in communities 
who kind of feed or fuel some of the research that you are 
doing?
    Mr. Werthimer. Seth, you want to take that one?
    Dr. Shostak. Dan refers to me because I don't think we know 
the answer to that question. In order to do this, it would be 
like saying, you know, sure, there are a few thousand people 
looking for the Higgs Boson but what about the communities that 
are feeding that? If you don't have the instrument, it is very 
hard to do the experiment. And the number of instruments 
involved here is very small.
    Ms. Edwards. So the rest of us are really just, you know, 
dreaming and pretending that that is what we are----
    Dr. Shostak. Well--
    Ms. Edwards. That is all right. You don't have to answer 
that. I was not serious at all. And then I want to talk about 
security issues in the time that we have left.
    I understand that early on there was an assessment of the 
robustness of the SETI's home software to withstand malicious 
attacks and penetrations. And in the earlier study you found 
that there had been two noteworthy attacks and the web server 
was compromised. And you also found later that exploiting a 
design flaw in your client/server protocol that hackers had 
actually stolen thousands of user email addresses. Can you give 
us an idea of the current state of security?
    Mr. Werthimer. Yeah. I think in general downloading 
software and installing it on your computer, you should be 
careful. It actually turns out that <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c09385948980a8afada5">[email&#160;protected]</a> is one of the 
safest things you can install on the computer, and the reason 
is because millions of people are using it and testing it out, 
and so--and also it has been running for a really long time and 
it is open source software. The software is--anybody can read 
the software and help us--a lot of the volunteers actually help 
us write the software and we are now reporting it to cell 
phones so you can run it on a cell phone, which will allow us--
a lot of people--even more people to participate in the search.
    Ms. Edwards. I guess some of the question is just the--
when--especially whenever you deal with open source, the 
challenge of the system's vulnerability.
    Mr. Werthimer. Yeah. I actually think open source software 
is actually a little safer because so many eyeballs can look at 
it.
    Ms. Edwards. Okay. I am done. I think I will just go back 
to watching my movies.
    Chairman Smith. Thank you, Ms. Edwards.
    The gentleman from Florida, Mr. Posey, is recognized for 
his questions.
    Mr. Posey. Thank you, Mr. Chairman. And thank you for 
inviting these distinguished witnesses for this fascinating 
testimony, very enjoyable.
    I go to the SETI Facebook page every day to get a little 
extra factoid, learn something every day. I hadn't been there a 
single day to find that I already knew your message of the day, 
very educational, very inspiring, obviously very interesting, 
and the graphics are always good, too, and I want to thank you 
for that.
    On your disclosure I was really impressed with the number 
of agreements and grants. I am just really glad to know that 
NASA is so engaged with what you are doing there and still 
allow you all to have a pretty free hand to do what you do, 
better I think than anybody else is doing it obviously. And so 
thank you for that.
    Obviously there is some curiosity about your thoughts about 
such things as Project Blue Book. What do you think?
    Dr. Shostak. First off, I want to thank you for noting all 
those grants, by the way, are for the astrobiology research 
being conducted at SETI Institute. There is actually no federal 
money going to the search for intelligent life.
    Mr. Posey. Right.
    Dr. Shostak. But we do--the majority of our scientists are 
doing astrobiology, so life on Mars, the outer solar system. In 
terms of--
    Mr. Posey. And we are glad you are.
    Dr. Shostak. Yes. Well, so are we. I can assure you. And 
that is, I think, a very productive line of research as well.
    In terms of Project Blue Book and the whole UFO phenomenon, 
I am personally quite skeptical. One-third of Americans 
believe, as I say, that we are being visited. That is the 
result of polls that have been taken since the 1960s. That 
number doesn't change. And by the way, if you think this is an 
especially American opinion, that is wrong. One-third of 
Europeans, Australians, Japanese, and so forth believe that we 
are being visited. I do not. I honestly do not. I don't think 
that the evidence is very good. I think that if we were being 
visited, it would not be controversial. It has been, what, 60-
some years since Roswell, for example. If you had asked the 
residents of Massachusetts 60 years after Columbus do you think 
you are being visited by Spaniards, that would not be 
controversial.
    Mr. Posey. Yeah.
    Dr. Shostak. I think that if they were really here, 
everyone would know that.
    Mr. Posey. Okay. Very good. Stephen Hawking, I believe, 
made some comments about contact with extraterrestrials or 
other life. Your thoughts about his comments?
    Mr. Werthimer. Yeah. So this is a controversial topic about 
whether we should transmit messages. That is called active 
SETI, or METI, messages to extraterrestrial intelligence. Most 
people in the field think that we are just an emerging 
civilization and the first experiments we should do is just 
listening, trying to receive signals and see what is out there. 
We think that advanced civilizations are going to be peaceful 
if you watch Star Trek, but we don't know that and that may be 
naive. So my feeling is that we should be just listening for 
now and maybe in 1,000 or 10,000 years if we don't hear 
anything, we should think about transmitting signals. But that 
is a question for all humanity. It shouldn't be just up to a 
few scientists. And so that is a big decision about who should 
speak for Earth. So right now I think we should be listening 
and that is--I believe that is what Hawking would say as well.
    Dr. Shostak. I am going to disagree a little bit with my 
colleague here, Dan. I think that there is very little danger 
in transmitting, and if there is, we are already doing it. Yes, 
we are not deliberately targeting the stars in general, 
although we have done that in the past. NASA sent a Beatles 
song in 2008 I believe it was to the North Star. And it will 
take 450 years to get there and they may or may not like the 
Beatles but, you know, they used a fairly powerful transmitter. 
But the most powerful transmissions are coming off the 
airports, right, for navigation, for the DEW Line, all these 
things. These signals are on their way into space. They have 
already reached several thousand star systems. Any society that 
has the technical competence to threaten you across dozens, 
hundreds, thousands of light years of space, any society at 
that level can pick up these signals. So if you are really 
going to worry about this, you better shut down all the radars 
at the local airports, and personally, I don't think that would 
be a very good idea.
    Mr. Posey. Okay. And briefly, still related, your thoughts 
on thorium.
    Mr. Werthimer. I am sorry. I am not familiar with the 
topic.
    Mr. Posey. Thorium--
    Mr. Werthimer. Are you talking about nuclear--
    Mr. Posey. Yes.
    Mr. Werthimer. --reactors--
    Mr. Posey. Yes.
    Mr. Werthimer. --on thorium?
    Mr. Posey. Yeah.
    Mr. Werthimer. I am really not an expert. I am sorry.
    Dr. Shostak. Only this, if you are talking about powering 
spacecraft--
    Mr. Posey. Yes.
    Dr. Shostak. If you send spacecraft to some of the more 
interesting parts of our solar system, they are in the 
boondocks of the solar system, out Jupiter, Saturn, and so 
forth. When you get to Saturn, the amount of sunlight has 
dropped by a factor of 100 so you can't use solar cells very 
effectively out there. You have to power the craft some way. I 
wouldn't worry too much about radioactivity in space of course 
because space has plenty of radioactivity. That is the nature 
of the cosmos, right. But if you are worried about the fact 
that these launches could go awry and that you would land these 
things on Earth, yes, that is a danger, but of course people 
are aware of that danger and they try and to mitigate.
    Mr. Posey. Thank you, Mr. Chairman, and thank both the 
witnesses.
    Chairman Smith. Thank you, Mr. Posey.
    The gentleman from Arizona, Mr. Schweikert, is recognized 
for his questions.
    Mr. Schweikert. Thank you, Mr. Chairman, and to our 
witnesses.
    So, let's see, what have we learned so far? We have learned 
there is a chance that aliens don't like the Beatles, which I 
have trouble imagining, and they don't like our television 
programming, and there was a couple other things, oh, yeah, and 
Contact is the best movie, right? Somehow I thought that would 
be funnier.
    A couple mechanical questions I just want to sort of get my 
head around some of the current scientific understanding. Let's 
walk through a scenario and you tell me if it is plausible or 
this is current thought. Asteroid hits the world, you know, 
hits our Earth, and rock is thrown out into, you know, the 
stellar, it carries DNA. Does that DNA survive? Doctor?
    Dr. Shostak. Yes. This idea is known as panspermia, and I 
am sure you are aware of that, the idea that one world could 
infect another world has been looked at. People have actually 
simulated the environment of space and put some of our earthly 
bacteria into a rock and put it, as it were, in space to see 
how long they could survive, for example. You know, would the 
DNA still be viable when it got someplace interesting? And the 
results, as I understand them, suggest that yes, if you are 
talking about, you know, communicable disease if you will 
within the solar system, could a rock from Mars have ceded the 
Earth, that is possible. There is no evidence that that 
occurred but that is possible. The life would survive. It would 
remain viable over the kind of timescales to send rocks in the 
solar system from one world to another.
    But if you are talking about seeding worlds in other solar 
systems at the distances of the stars, the problem is space is 
a pretty harsh environment even for a rock because there is a 
lot of radiation and it is incredibly dry, so anything that is 
in there is going to be suffering desiccation for maybe 
hundreds of thousands, millions really--
    Mr. Schweikert. Yeah.
    Dr. Shostak. --of years before it gets there. And the 
general consensus that I have heard is that it won't be viable 
when it does.
    Mr. Schweikert. Count on that because I think that is the 
current sort of thought right now.
    Mr. Werthimer. Yeah, so as you know, asteroids have hit the 
Earth many times and so it will be a really interesting 
question if life is found in our own solar system, like, for 
instance, Europa, which is a moon going around Jupiter, has a 
liquid ocean, there could be something swimming around down 
there. By the way, when I--I talk to elementary schools and I 
ask them how are we going to get through the ice and see if 
there is something swimming around down there? The boys all say 
we should use machine guns and bombs and the girls say we 
should melt our way through using mirrors, a little different. 
But anyway--
    Mr. Schweikert. Once again proving there is something in 
our DNA which is different.
    Mr. Werthimer. So, if we do find life in our own solar 
system, it would be really exciting to figure out is it exactly 
the same kind of life? Does it use the same DNA, the same amino 
acids, the same nucleotides? Is it identical chemistry? That 
would mean that rocks are going back and forth between these 
moons and planets in our own solar system, and it really 
happened in one place and was carried back and forth, as Seth 
was talking about.
    That is not very interesting. What would be much more 
interesting would be discovering life that is different with a 
different chemistry because if we do find something like that 
on Europa or another moon or Mars, that means that the universe 
is teeming with life. If we can find it in two different kinds 
of life in our own solar system, that means there is a lot of 
life out there.
    Mr. Schweikert. Yeah. It makes the imagination wonder.
    Earlier, the Chairman--and I mean this with all the love in 
the world--was trying to say give me a percentage of life out 
there in existence. I remember doing this sort of as a sort of 
thought process with one of my professors many years ago. And I 
guess one of the mechanisms was from the beginning until today 
Earth has had 100 billion species or something of that and how 
many can do higher math and sort of give you sort of a--and we 
would use that as sort of a benchmark to try to do those 
calculations. And I guess our understanding was it is 
unknowable, you know----
    Mr. Werthimer. Yeah.
    Mr. Schweikert. --of what is out there, what isn't out 
there. I mean, you know, we see the world of large numbers, 
large planets, you know, these huge numbers.
    Mr. Werthimer. Um-hum. On Earth intelligence has arisen 
several times independently. There are a lot of intelligent 
creatures, although none is quite as intelligent as us maybe. 
We are not sure.
    Mr. Schweikert. Well, we always used the higher math as 
the----
    Mr. Werthimer. Yeah. But I--my guess is that on some 
planets there are going to be selective pressures that select 
for different kinds of things. You can be successful in life if 
you are strong or fast or--but you can also be successful in 
some evolutionary environments by being smart, and so I think 
there are going to be places in the universe where it is 
advantageous to be smart.
    Mr. Schweikert. But the--I guess and--for Dr.--the fun in 
this one is how would you ever calculate it? Where--how would 
you ever sort of build your baseline to build from? And when 
you move from sort of hope, which is a powerful thing, to being 
able to put it into a calculator----
    Mr. Werthimer. Yeah.
    Mr. Schweikert. --there is often quite a leap there.
    Mr. Werthimer. I think it is very difficult to estimate 
because we just have this one example on Earth. And so the--I 
think the only way we are going to find out is to do this 
search.
    Dr. Shostak. It is very akin, I think, to sitting around in 
the bars of Europe in 1700 trying to estimate the probability 
that any expeditions sent into the deep south--any sailing 
expedition will find the hypothesized southern continent there.
    Mr. Schweikert. Yeah.
    Dr. Shostak. You know, what is the probability? Can you 
give me that to three figures before I fund to you? You can't. 
You can't.
    Mr. Schweikert. Yeah. So----
    Dr. Shostak. You have to do the experiment.
    Mr. Schweikert. So therefore it becomes a leap of faith but 
it is----
    Dr. Shostak. It is a reasonable leap of faith. It is a 
reasonable hypothesis that there is life to be found out there, 
even intelligent life to be found out there. And we can sit 
around and have a lot of drinks and talk about it, but in the 
end, if you don't do the experiment, you will just continue to 
have the drinks.
    Mr. Schweikert. Well, seeing some of our questions, there 
may have been a lot of drinks going on.
    Thank you, Mr. Chairman.
    Chairman Smith. Thank you, Mr. Schweikert.
    Dr. Shostak, Mr. Werthimer, thank you both for your 
testimony, which was clearly appreciated by both Members of 
Congress as well as the audience.
    And I also want to thank the Herndon High School students 
for being here today. You had a wonderful opportunity today to 
hear about a fascinating subject and I hope this will spur you 
on to study not only astrobiology but other scientific subjects 
as well.
    And in case someone has an interest or wants to follow up 
on this subject, you might go to our Committee's website, which 
is Science.House.Gov, and we will clearly have some information 
about this hearing on that website, as well as other things 
that might be of interest to you all.
    So thanks again for a wonderful hearing today and we stand 
adjourned.
    [Whereupon, at 11:03 a.m., the Committee was adjourned.]
                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions




                   Answers to Post-Hearing Questions
Responses by Dr. Seth Shostak

[GRAPHIC] [TIFF OMITTED] 

Responses by Mr. Dan Werthimer

[GRAPHIC] [TIFF OMITTED] 

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
